        LEGAL SERVICES CORPORATION
        OFFICE OF INSPECTOR GENERAL




        AUDIT OF GRANTEE'S
   PRIVATE ATTORNEY INVOLVEMENT
             PROGRAM




Grantee: Legal Services of Northern California
                Recipient No. 805240


              Report No. AU04-06



                 AUGUST 2004

                 www.oicdsc.qov
                                                                          Legal Services Corporation
                                                                          Office of Inspector General




                                                  August 25,2004

Mr. Gary F. Smith
Executive Director
Legal Services of Northern California, Inc.
517 Twelfth St.
Sacramento, Ca. 95814

Dear Mr. Smith:

Enclosed is our final audit report on Legal Services of Northern California's
compliance with private attorney involvement (PAI) requirements of 45 CFR Part
1614. Your comments on the draft report are included as Appendix 1. The final
report includes four recommendations.

Your response to the draft report indicates substantial agreement with the
recommendations. You disagreed with the findings that the expenditures for the
Senior Legal Hotline and a portion of the expenditure for the legal advice and
assistance contract should not have been charged to PA1 for 2002. We deleted the
Senior Legal Hotline finding, but continue to conclude that all of the expenditure for
legal advice and assistance should not have been charged to PAI.

Based on your agreement with the recommendations and the steps you indicate
have been taken to implement them, we are closing three of the four
recommendations. However, please provide an action plan for implementing
recommendation 2. Specifically, your plan should address the steps that will be
taken to discontinue charging all of the expenditure for legal advice and assistance
to PAI. Please provide us with the plan within 30 days of this report.

A copy of this report is also being sent to the Chair of the Board of Directors of your
program and to LSC management.

Thank you and all your staff for the cooperation and courtesy extended to the OIG
auditors. If you have any questions about the report, please contact David L.
Gellman at 202-295-1665 or me at 202-295-1651.

                                                 Sincerely,


                                                 Leonard J. Koczur
                                                 Acting Inspector General

Enclosure
                                                                         3333 K Street, NW, 3rd Floor
CC:    Leaal Services Cor~oration
                                                                         Washington, DC 20007-3522
       John Eidleman
       Michael G e n z                                                   Ph: 202.295.1 500 Fax: 202.337.661 6
                                                                         www.oig.lsc.gov
       LEGAL SERVICES CORPORATION
       OFFICE OF INSPECTOR GENERAL




        AUDIT OF GRANTEE'S
   PRIVATE ATTORNEY INVOLVEMENT
              PROGRAM




Grantee: Legal Services of Northern California
                Recipient No. 805240


              Report No. AU04-06



                 AUGUST 2004

                 www.oig.lsc.gov
                                    TABLE OF CONTENTS

                                                                                                               Page

RESULTS OF AUDIT ........................................................................................ 1

         OVERSIGHT AND FOLLOW-UP ............................................................. 1
         RECOMMENDATION.............................................................................. 2

         PA1 EXPENDITURES............................................................................... 2
         RECOMMENDATIONS ...........................................................................3

         STATISTICAL REPORT ..........................................................................
                                                                                                    3
         RECOMMENDATION............................................................................4

BACKGROUND   ............................................................................................... 4
OBJECTIVES. SCOPE and METHODOLOGY .................................................. 5

SUMMARY OF GRANTEE'S COMMENTS ON DRAFT
REPORT AND OIG'S RESPONSE.............................................................6

APPENDIX I .Grantee Comments                      .............................................................. I .1
APPENDIX II .OIG On-Site Audit Team .......................................................II .2
                             RESULTS OF AUDIT


The Legal Services Corporation (LSC), Office of Inspector General (OIG)
conducted this audit to evaluate Legal Services of Northern California (grantee)
compliance with the Private Attorney Involvement (PAI) regulations (45 CFR
1614). This regulation requires the grantee to spend an amount equal to at least
12.5 percent of its basic field grant to involve private attorneys in providing legal
services to clients. Grantees are to provide LSC statistics on the private
attorneys involved and the programs must operate efficiently and effectively.

The grantee generally complied with the requirements of 45 CFR 1614, and
related statistical reporting requirements except the grantee:

       did not provide adequate oversight and follow-up for cases referred to
       private attorneys (1614.3(d)(3)).

       made a net understatement of PA1 expenditures, although still exceeded
       the 12.5 percent expenditure requirement for 2002 (1614.1(a)).

       did not report accurate statistical data on its PA1 program to LSC

Each finding is discussed in detail below.


OVERSIGHT AND FOLLOW-UP

The grantee did not provide adequate oversight or follow-up to ensure the prompt
disposition of cases referred to private attorneys by the subgrantee Volunteer
Legal Services Program (VLSP) in Sacramento as required by section
1614.3(d)(3). The Auburn Branch Office provided adequate oversight and follow-
UP.
A sample of ten VLSP cases was reviewed. Six out of the ten cases neither had
documentation of follow-up letters nor telephone calls for periods of six months to
one year. Two examples illustrate the problem:

      Case A was opened and assigned to a private attorney in May 2000. The
      attorney was contacted in March 2004, but the most recent prior contact
      was in March 2003.

      Case B was opened and assigned to a private attorney in September
      2001. The most recent follow-up with the attorney occurred in March
      2004, but the most recent prior contact was in July 2002.
VLSP had not fully implemented procedures requiring the staff to periodically
follow up, including documentation, with private attorneys to determine the status
of cases. Attorneys handling limited service cases should be contacted within a
month of case referral to determine their status. Quarterly follow-up, at a
minimum, should be required for extended service cases. The adherence to
such procedures would substantially correct the follow-up problem without
burdening either VLSP staff or the private attorneys. Over 95 percent of the PA1
cases are limited services and should require minimum follow-up work.
Periodically following up on the relatively few extended services cases should not
be time consuming.

The OIG recognizes that following up on the status of PA1 cases presents some
difficult challenges for the grantee. In this grantee's situation, the private
attorneys are generally taking the cases pro bono and their involvement expands
the availability of legal services to eligible clients. The OIG understands that the
grantee certainly does not want to alienate the attorneys and have them leave
the program. However, the follow-up procedures outlined in the prior paragraph
should not be an undue burden to either the private attorneys or the VLSP's staff,
and should ensure the timely disposition of cases as required by the regulation.


RECOMMENDATION

We recommend that the Executive Director

1.     Require VLSP to implement procedures for documenting follow-up with
private attorneys on the status of PA1 cases, including timely follow-up on limited
service cases and at least quarterly follow-up on extended service cases.


PA1 EXPENDITURES

The grantee's 2002 PA1 expenditures of $467,655 were understated by $7,162.
The understatement resulted from improperly charging some contract services to
PA1 and failing to allocate certain employee benefits to PAI. When the $7,162 is
added, the grantee's corrected PA1 totaled $474,817.           This amount is
17.6 percent of the grantee's basic field grant. The net understatement resulted
from the following:


      Overstatement for Contract Services
      Understatement of Employee Benefits
            Net Undercharge
The $25,500 overstatement resulted from a direct charge of $30,000 to PA1 for a
contract payment to Western Center for Law and Poverty. This contract provides
for legal research and technical support for the grantee's legal staff and PA1
attorneys. Charging the entire contract expenditure to PA1 does not comply with
the requirement for allocating costs based on reasonable operating data. (Sec.
16143(e) ( 1 (i)). Applying a reasonable allocation for PA1 (15 percent
approximates the percentage of PA1 cases to total cases) to the contract cost
reduces the charge to PA1 by $25,500.

The $32,662 understatement occurred because indirect costs (rent, equipment
and other office expenses) applicable to PA1 that were funded by non-LSC
sources were not charged to PAI. Even though non-LSC funds were used to pay
the expenses, they should have been included in the grantee's total PA1
expenses. The grantee does not require that such expenses be charged to PAI.

The error in accounting for PA1 expenses did result in LSC not receiving accurate
information on PA1 expenditures. Similar errors in the future could reduce the
grantee's PA1 expenditures below the required level and result in a violation of
the PA1 regulation. The grantee needs to establish procedures requiring that the
financial manager periodically review amounts charged to PA1 to ensure they are
accurate.


RECOMMENDATION

We recommend that the Executive Director:

   2.     Establish procedures requiring the individual responsible for the
          financial system to periodically review direct and indirect charges to
          PA1 to ensure they are accurate and reasonable.

   3.     Require that accounting procedures be changed to ensure that all
          applicable expenses are charged to PAI, regardless of funding source.


STATISTICAL REPORT

The grantee reported inaccurate statistical data for 2003. On the J-I Report-
Components of PAI, the grantee reported 578 closed cases, significantly
understating the 2,619 closed cases reported for PA1 in the G-3(d) Report-
Actual Case Services-PAl. Supporting documentation showed a total of 2,595
PA1 cases closed for 2003. The Managing Attorney for Sacramento stated that
the total reported on the G-3(d) Report was accurate, and the discrepancy
reflected 24 cases closed in 2003 that had not yet been entered into the
supporting documentation. Statistical data should be reported accurately and
supporting documentation should be complete.
RECOMMENDATION

We recommend that the Executive Director:

       4.     Establish procedures to ensure that all statistical data reported is
              accurate and that supporting documentation is complete.


                                   BACKGROUND

Legal Services of Northern California, Inc. is a nonprofit corporation established
to provide legal services to indigent persons who meet applicable eligibility
requirements. This grantee is headquartered in Sacramento, California, with
branch offices in Woodland, Chico, Auburn, Redding, Vallejo, Eureka, Ukiah and
W. Sacramento. The grantee has total staffing of approximately 101 employees,
about one third are attorneys. The grantee received an LSC basic field grant of
$2,704,803 for 2002. The PA1 program, as reflected in the statistical data,
focuses on limited service cases (98 percent for 2003), with 22 percent
consumerlfinance, 15 family law and 45 percent "miscellaneous" such as wills,
probate, criminal records expungement and driver's license reinstatements.
Most of these services are provided through periodic clinics.

LSNC's PA1 plan varies from office to office because of unique circumstances in
each of the counties where programs are located. Of the 2600 closed cases
reported for 2003, approximately 2000 were closed in Sacramento and 336 in
Auburn. Less than 300 cases were scattered among the remaining offices.

The Sacramento Office provides PA1 legal services primarily through a subgrant
to the VLSP. The VLSP is a joint program of LSNC and the Sacramento County
Bar Association. It is currently staffed by the Executive Director of LSNC, a
Managing Attorney and an Assistant Program Manager for Administrative
Services. VLSP operates the following periodic clinics in Sacramento: (1)
driver's license reinstatement and criminal record expungement, (2) debt
collection defense and employment law, (3) probate, and (4) AIDS and simple
wills.

Also in Sacramento, an LSNC Supervising Staff Attorney coordinates a non-LSC
funded Senior Legal Hotline utilizing pro bono attorneys. Pursuant to the Older
Americans Act, LSC financial eligibility is not required. Consequently, cases
generated by this hotline are not reportable.

Most of the PA1 activities in Auburn consist of limited services through seven pro
se clinics. One LSNC staff attorney and one LSNC paralegal coordinate six of
these clinics, while a contract attorney coordinates a monthly clinic in a more
remote area.

In 2002, LSNC reported $467,655 ($290,787 in LSC funds) to meet the PA1
requirement. This amounted to 17.3 percent of the annualized basic field grant
of $2,704,803. Of the total PA1 expenditures reported, LSNC reported $363,029
for staff salaries, benefits and related indirect charges such as rent, equipment
and other office expenses. LCNC charged the following expenditures directly to
PAI: (1) $54,150 for the VLSP sub-grant, (2) $30,000 for consulting services,
and (3) $20,476 for a reduced-fee contract attorney. {SEE ADJUSTMENTS TO
PA1 EXPENDITURES)


             OBJECTIVES, SCOPE AND METHODOLOGY

The purpose of the audit was to evaluate compliance with requirements
established in 45 CFR 1614, relating to private attorney involvement (PAI),
including effectiveness and efficiency of PA1 programs (Sec. 1614.1(c)). The on-
site portion of this audit was performed from March 15, 2004 to March 17, 2004.
This audit is part of a series of audits of PA1 the OIG will conduct at a
representative number of LSC grantees to identify systemic weaknesses as well
as "best practices." The audit was performed in accordance with Generally
Accepted Government Audit Standards.

The audit covered the period from January 1, 2002, through December 31, 2002
for accounting data, and January 1, 2003 through December 31, 2003 for
statistical data.    The OIG reviewed grant applications, audited financial
statements and statistical data reported. The OIG interviewed the Executive
Director, Managing Attorney for Sacramento and the VLSP Program Director
(subgrantee) as well as the Fiscal Director at the headquarters office in Fresno.
In addition, the OIG interviewed the Managing Attorney and the paralegal who
coordinated the pro se clinic at the Visalia Office. The OIG performed the
following specific tests:

      Planning   -Reviewed and evaluated the grant application for 2002.
      lnterviewed Office of Performance and Planning and the Office of
      Compliance and Enforcement staffs to obtain background on prior reviews
      and evaluations. lnterviewed the Executive Director and VLSP Director to
      evaluate planning for prioritizing legal needs and for obtaining feedback
      from community organizations and clients on PA1 legal services provided.

      Statistics - Traced statistical reports (Case Statistical Reports) to closed-
      case listings for PA1 cases. Tested samples of cases for each of the two
      offices where PA1 cases were reported to verify existence, LSC eligibility,
      type of case and level of service. Tested the accuracy of data reported on
      the J-I Report-Components of PA1 by tracing the data to supporting
      documentation.

   3. Accounting - Reviewed and evaluated the grantees audited financial
      statements for 2002. Tested a sample of direct PA1 disbursements, tracing
      expenditures to source documentation submitted by vendors and
      evaluating relevance to the PA1 program. Compared a listing of individuals
      who had terminated employment with the grantee in the past two years to
      verify compliance with the prohibition on paying these former employees,
      including reduced-fee contracts for PAI. Evaluated the reasonableness of
      time charged to PA1 by grantee employees, related indirect costs and
      internal controls over accounting for PAI.

  4. Oversight - Reviewed self-inspections for 2002. Tested samples of open
     and/or recently-closed cases to evaluate the timeliness of follow-up and
     case closure.

   5. Productivity - Evaluated statistical and accounting data to assess the
      productivity of the grantee's overall PA1 program by comparing this data to
      national averages. Compared productivity between the PA1 programs at
      the grantee's two offices.



     SUMMARY OF GRANTEE'S COMMENTS ON DRAFT REPORT AND
                    THE OIG'S RESPONSE



GRANTEE COMMENT-OVERSIGHT AND FOLLOW-UP

The grantee disagreed with the draft report's "apparent finding" that VLSP had
not adopted follow-up procedures with private attorneys. The grantee stated that
contacts were made by telephone in the cases sampled, but that these contacts
were not always documented due in part to problems arising from installation of a
new case management system.

The grantee accepted the recommendation and reported that it has taken steps
to implement the recommendation.


OIG RESPONSE

The OIG modified the finding, eliminating reference to establishing procedures,
and focusing on implementing follow-up procedures, including documentation.
GRANTEE COMMENT-OVERSTATEMENT OF PA1 EXPENSES

(a) The grantee disagreed with the finding that all expenses associated with the
    Senior Legal Hotline were not allowable PA1 expenses. The grantee asserts
    that its sampling studies showed that 55 percent of their seniors' cases were
    LSC eligible and that LSC permitted the grantee to include 55 percent of its
    seniors' cases in its' CSR reports for 2002. In turn, the grantee argues that
    55 percent of the Senior Legal Hotline expenses should be applied as
    qualifying PAl-related expenses for 2002.

(b) The grantee disagreed with the disallowance of a portion of a contract
    payment for legal research and technical support for the grantee's staff and
    PA1 attorneys. The grantee asserts that the contractors are "private
    attorneys'' as defined by 45 CFR 1614.1(d). The grantee argues that 45 CFR
    I614.3(b)(l) specifically includes as an allowable PA1 expense "support
    provided by private attorneys to the recipient in its delivery of legal
    assistance to eligible clients on either a reduced fee or pro bono basis." In
    turn, the grantee states that the value of services provided by this contractor
    meets the requirement for reduced-fee legal services because the estimated
    fair market value of comparable services from "commercial vendors" would
    be well in excess of $100,000 (more than 50 percent less than the contract
    fee of $30,000).

    The grantee accepted the two recommendations to periodically review direct
    and indirect charges to PA1 and to change accounting procedures to ensure
    that all applicable expenses are charged to PAI, regardless of funding
    source.


OIG RESPONSE

(a) The OIG deleted the finding on the allowability of Senior Legal Hotline
    expenses. We concluded that the LSC authorization to report CSR data for
    2002 for the Senior Legal Hotline could reasonably imply authorization to
    report the related expenditures as PAI. For subsequent years, however, the
    grantee may not include these Senior Legal Hotline expenditures for PAI.

(b) The OIG disagrees with the grantee's assertion that contract costs for legal
    research and technical support are allowable PA1 charges. The contractor
    does not provide support services to the grantee on a reduced fee or pro
    bono basis.     Because the contractor limits its' activities to providing
    assistance to low income persons, it is not clear that the contractor qualifies
    as a private attorney.(See 1614.1(d)) Even if the contractor qualified as a
    private attorney, permissible activities chargeable to PA1 include support
    provided on a reduced fee or pro bono basis. (See Sec. 1614.3(b)(I)). The
grantee may be correct in asserting that the rate paid in this contract was
substantially lower (more than 50 percent less) than the rate that would be
paid to a commercial vendor ("for profit" law firm). However, this appears to
be an arms-length contract with a rate available to all legal service providers.
Consequently, these attorney fees reflect the fair market rate for such
services provided by nonprofit organizations and are not reduced rates.


GRANTEE COMMENT-STATISTICAL REPORT

The grantee accepted the recommendation and reported that it has taken
steps to ensure that statistical data reported is accurate.
                                                                                    APPENDIX I




                                      July 30, 2004

                                                                     Via Federal Express

Leonard J. Koczur
Acting Inspector General
Legal Services Corporation
3333 K Street, N.W., 3rdFloor
Washington, DC 20007-3522

Dear Mr. Koczur:

                                       Introduction

       This letter constitutes the response of Legal Services of Northern California, Inc.
(LSNC) to the draft report of the Office of the Inspector General, dated July 12, 2004,
on the audit conducted by the OIG of LSNC's compliance with the Private Attorney
Involvement (PAI) requirements of the Legal Services Corporation. We will comment
upon each of the findings in the draft report. The draft report also contains four
recommendations, all of which were raised in conversations with the OIG team prior to
their departure in March. As we indicated verbally at that time, and confirmed in a
follow-up letter to the OIG dated March 26, 2004 (attached), we already have accepted
and implemented the recommendations set forth in the draft report, (and made other
improvements to aspects of our PA1 program not mentioned in the report), and we are
puzzled by the report's failure to acknowledge these prior and prompt responses to the
OIG team's suggestions.

1.     Overall find in^.

        We are pleased, of course, with the draft report's overall conclusion that LSNC
is in general compliance with the mandate of 45 C.F.R. § 1614 and related statistical
reporting requirements. We are disappointed, however, that the draft report
immediately and exclusively focuses upon four relatively minor instances of alleged
non-compliance, without in any way describing or even acknowledging the overall high
quality and effectiveness of our PA1 program; the overall strength and integrity of our
PA1 systems (in terms of both fiscal and case management); the strong overall
compliance of our PA1 cases with CSR requirements; and the wide variety and
creativity of our PA1 delivery systems, which successfully implement the Corporation's
private attorney involvement mandates in diverse legal markets ranging from high
density urban centers to extremely isolated rural communities. All of these positive
attributes of our PA1 program were discussed and acknowledged verbally by the OIG
Leonard J. Koczur, Acting Inspector General
Legal Services Corporation
July 30, 2004
Page 2


team during their on-site review, but somehow none of these observations appear in
the draft report.

2.     Oversight and Follow-up with Voluntarv Legal Services Pronram (VLSP) Cases.

       The draft report concludes that while the PA1 cases handled by LSNC's Auburn
office were provided with adequate oversight and follow-up, the PA1 cases referred to
the Voluntary Legal Services Program (VLSP) in Sacramento were not.

        We disagree with the draft report's apparent finding that VLSP has not adopted
procedures "requiring staff to periodically follow up with private attorneys to determine
the status of cases." Draft Report at 2. In fact, as we discussed at length with the OIG
team, VLSP always has required staff to make quarterly status contacts with private
attorneys on PA1 extended services cases, and in fact such contacts were made, by
telephone, in the cases sampled. However, due in part to problems arising from the
installation of a new case management system during the period in question, the
periodic reviews were not always documented in the case files.

              Recommendation No. 1:

       We accept this recommendation, and as set forth in our attached letter of March
26, 2004, VLSP already has taken steps to ensure that "status" letters will be sent to
pro bono counsel handling open cases at least once every quarter, and that the
postings and date of such letters shall be documented in the case notes of each file. In
addition, "limited service" cases (primarily clinics) shall be monitored to ensure closure
as soon as services have concluded, and any such cases requiring more extended
service will be reviewed on a quarterly basis.

3.     Overstatement of Certain PA1 Expenses.

       (a)    Senior Leaal Hotline Expenses.

        We disagree with the draft report's finding that all expenses associated with our
Senior Legal Hotline be disallowed for PA1 purposes. As we discussed at some length
with the OIG team, in recent years the Corporation has wavered on the question of
whether cases for seniors, funded by the Older Americans Act, under which financial
eligibility information generally is not obtained for individual clients, should be included
for Case Service Reporting (CSR) purposes. Prior to 2002, LSC grantees included
such cases in their CSR reports. In 2002, pursuant to a pilot project approved by LSC,
Leonard J. Koczur, Acting Inspector General
Legal Services Corporation
July 30, 2004
Page 3


both LSNC and Atlanta Legal Aid Society conducted detailed studies of their seniors
cases which indicated that 55% and 53%, respectively, of their senior clients met LSC
eligibility standards. Accordingly, for 2002, LSNC was instructed to include 55% of its
Senior Hotline cases in its CSR reports. In 2003, LSC changed its CSR reporting
policy for seniors cases yet again, and provided for "special CSR reporting" of seniors
cases (see Program Letter 03-2).

       This audit covers LSNC's PA1 compliance for 2002. Since LSC specifically
permitted LSNC to include 55% of its seniors cases in its regular CSR reports for 2002,
at a minimum 55% of our PA1 expenses attributable to the Senior Legal Hotline for
2002 should be allowed. Moreover, since our sampling indicates that a consistent 55%
of our Senior Legal Hotline clients continue to meet LSC financial eligibility standards,
LSNC should be permitted to continue to apply that percentage to its otherwise
qualifying PAl-related expenses for the Senior Legal Hotline.

       (b)   Western Center on Law and Poverty Support Services Contract.

       We strongly disagree with the draft report's disallowance of a direct charge of
$30,000 for a contract payment to Western Center on Law and Poverty, for the
provision by WCLP of various services to LSNC advocates and clients, including legal
advice and assistance on cases; co-counseling; legal research; community education
materials; and substantive trainings The draft report concludes that charging the entire
contract amount is not a "reasonable allocation," and instead allows only a 15%
allocation (approximating the percentage of LSNC's PA1 cases to total cases).

        The draft report appears to treat the WCLP contract amount as a general
indirect expense, which can be allocated to PA1 only in proportion to LSNC's general
PA1 percentage. This analysis is incorrect and misapprehends the nature of the
legal support provided by WCLP to LSNC. WCLP is a private law firm which
specializes in issues affecting low income clients in California. The attorneys employed
by WCLP are "private attorneys" as defined by 45 C.F.R. 5 1614.1(d). Every time a
WCLP advocate provides legal advice or technical support to a LSNC advocate,
pursuant to our contract, LSNC receives direct "private attorney" assistance. Indeed,
the legal services provided by WCLP to LSNC are no different than the services
provided to a grantee pursuant to a PA1 contract with any private law firm. 45 C.F.R. §
1614.3(b)(I) specifically includes, in the permissible range of PA1 activities, "support
provided by private attorneys to the recipient in its delivery of legal assistance to
eligible clients on either a reduced fee or pro bono basis through the provision of
community legal education, training, technical assistance, research, advice and
Leonard J. Koczur, Acting Inspector General
Legal Services Corporation
July 30, 2004
Page 4


counsel, co-counseling arrangements, or the use of private law firm facilities, libraries,
computer-assistedlegal research systems, or other resources" (emphasis supplied).
These are precisely the type of services provided to LSNC by WCLP. The fair market
value of the legal services which LSNC and its clients receive annually from WCLP (a
non-profit organization) is obviously far in excess of the contract amount, and thus
there is no doubt that WCLP provides these services on a vastly "reduced-fee" basis.
Indeed, the estimated fair market value of comparable services, if they were available
and could be purchased from a commercial vendor, is well in excess of $100,000. All
of the services provided by WCLP to LSNC meet the definition of PA1 activity, and
therefore the entire amount of the support contract with WCLP should be allowed as a
PA1 expense.

4.     Understatement of PA1 Expenses.

      The draft report found that LSNC understated its PA1 expenses in the amount of
$32,662, by not including certain indirect costs applicable to PA1which were funded by
non-LSC sources.

              Recommendations 2 and 3:

       We accept these two recommendations regarding the accounting of our PA1
expenses, and accordingly LSNC's Director of Finance and Administration will review,
on a quarterly basis, all direct and indirect charges to PA1 to ensure all such charges
are accurate and reasonable. In addition, we will pursue modifications to our
accounting software in order to accurately capture PA1 expenses charged to non-LSC
funds.

5.     Statistical Reporting Discrepancv.

       The draft report noted a discrepancy between the number of 2003 closed PA1
cases reported to LSC in G-3(d) Report of Actual Case Services - PA1 (2,619 cases),
and LSNC's documented PA1 case total for 2003 (2,595). As discussed with the OIG
team during their visit, and as reflected in the draft report, the difference of 24 cases
was due to the fact that, as of the date the case management information was relayed
to the OIG in January 2004, 24 closed cases inadvertently had not yet been entered
into the case management system (but were so entered prior to transmission of the G-
3(d) reports in March).
Leonard J. Koczur, Acting Inspector General
Legal Services Corporation
July 30, 2004
Page 5


       The draft report also notes a discrepancy between the total number of closed
PA1 cases in the G-3(d) report, and the total number reflected on the J-1 (Components
of PA!) Report. As discussed with the OIG team during its visit, the numerous
categories of PA1 cases listed on the J-1 form are neither defined nor described, and
LSC has never explained or clarified how these different "components" should be
reported. Nevertheless, as set forth in our attached letter of March 26, 2004, LSNC
already had modified its case management system to require case handlers to
designate each PA1 case as one of the eight case types identified on the J-1 form, so at
the end of every reporting period the totals reflected in the G-3(d) and J-I reports
should be identical.

              Recommendation 4:

       We accept this recommendation, and as set forth above we already have taken
steps to ensure that all statistical data reported is accurate.

                                       Conclusion

       Thank you for this opportunity to respond to the draft report. We understand
that our comments will be summarized in the body of the final report, and that this letter
will be included as an appendix thereto. We look forward to receipt of the final report.




                                         @ry&. Smith
                                         Executive Director


Enclosure

GFSIbct
                                     March 26, 2004


David L. Gellman
Supervising Senior Auditor
Office of the Inspector General
Legal Services Corporation
3333 K Street, NW, 3"dFloor
Washington, DC 20007

                     Re: PA1 Audit of Legal Services of Northern California

Dear David:

        I wanted to let you know of three modifications to our case management and
case handling protocols which we have created following your visit to LSNC last week.
First, we have revised the "case typen selection protocol such that, whenever the case
type selected is "PAIn(as opposed to "staff*), the intake cannot proceed until the case
handler further designates the case as one of the eight categories of PA1 cases
described on LSC's Grant Activity Report Form J-I . Accordingly, at the end of every
reporting period, the total number of cases reported for LSNC in those eight categories
on Form J-1 should always equal the total number of PA1 cases reported for the entire
program. Since all of the cases handled by our Voluntary Legal Services Program
(VLSP) in Sacramento are PA1 cases, and since all of them fall within the same
category on Form J-1, the Sacramento VLSP cases will all default to that category in
the case management program. This modification should eliminate any discrepancies
between the totals in the J-1 categories and the overall PA1 case total.

        Second, we have created a data integrity protocol review in the Sacramento field
office which will identify, every month, any cases designated as "staff cases which
have had six or more hours of PA1 time expended upon them by a LSNC staff person.
Any such case will be reviewed to determine whether, since the initial intake and
designation as a "staff case, it should (e.g., by virtue of LSNC having obtained an on-
going pro bono w-counsel, etc.) be redesignated as a "PAIntype case.

       Third, as I believe we discussed with you during your visit, we have revised the
case handling protocol for the Sacramento VLSP cases to ensure accurate
documentation of our on-going oversight of open cases. VLSP will continue to
generate "status" letters to pro bono counsel handling open cases at least once every
quarter, and in addition, the posting and date of all such letters shall be documented in
the case notes of each file.
David L. Gellman
March 26,2004
Page Two

       All of these modifications should be fully deployed by April 2, 2004. On behalf of
LSNC and VLSP, I want to express our appreciation for the cordial and constructive
tenor of your visit. As we indicated before you left, if in the course of your general
survey of PA1 practices you think it would be helpful to discuss any issues (either of
specific compliance or broader policy) with staff in a field program, Bill Kennedy and I
would be happy to serve in that capacity.




                                       '~xecutive Director
cc:   Amelia Laguilles
                                                  APPENDIX II


                         OIG On-Site Audit Team


David Gellman (Auditor-in-Charge)

Amelia Laguilles
